No. 20-322

In the Supreme Court of the United States
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
Petitioners,
v.
ESTEBAN ALEMAN GONZALEZ, ET AL.,
Respondents.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
Petitioners,
v.
EDWIN OMAR FLORES TEJADA, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
The undersigned certifies that, on this 13th day of October 2020, in addition to
filing the accompanying amicus brief via the Court’s electronic filing system, one true
and correct copy of the foregoing document was served by U.S. Mail, postage pre-paid,
on the following counsel:
Jeffrey B. Wall
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
supremectbriefs@usdoj.gov

Ahilan T. Arulanantham
ACLU Foundation of Southern CA
1313 West 8th Street
Los Angeles, CA 90017
Tel: 213-977-5211
Email: aarulanantham@aclusocal.org

Counsel for Petitioners

Counsel for Respondents

In addition, on this 13th day of October 2020, the following email addresses
have also been served electronically:
supremectbriefs@usdoj.gov
aarulanantham@aclusocal.org

Pursuant to this Court’s order dated April 15, 2020, the undersigned further
certifies that, on this 13th day of October 2020, an original paper copy was served on
the Court – together with one unbound copy – by Federal Express, next-day delivery,
and that amicus Immigration Reform Law Institute will expeditiously file bookletfrom copies of this motion and brief if so requested.
Executed October 13, 2020, at Washington, DC,
Lawrence J. Joseph
________________________________
Lawrence J. Joseph

